April 5, 2021
Via Electronic Filing and First-Class Mail
Hon. Scott S. Harris
Clerk of the Court Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Request for extension of time to file brief in opposition
MarySusan Ward v. Louisville Metro Government
S. Ct. No. 20-1262

To the Clerk of the Court:
Pursuant to Supreme Court Rule 30.4, Appellee, Louisville Metro
Government, respectfully moves for a thirty (30) day extension of time for
filing its response to Appellant MarySusan Ward’s Petition for Writ of
Certiorari in MarySusan Ward v. Louisville Metro Government, Docket No. 201262, until May 12, 2021.
Ms. Ward filed her Petition for Writ of Certiorari on March 10, 2021.
The original deadline for Appellee to file its brief in opposition is April 12,
2021. Counsel for Appellee acknowledges that the brief in opposition must
be filed by a Bar member and two of the undersigned attorneys, Patricia C. Le Meur and Ryan
D. Nafziger, are currently awaiting admission to practice before the United States Supreme
Court at this time. Undersigned attorneys respectfully request an additional thirty days so
that they might complete the admission process before filing a brief in opposition.
Additionally, Appellant in her Petition raises complex issues regarding remedies
afforded under this Court’s ruling in Batson v. Kentucky. This is an appeal of a Kentucky Rule
of Civil Procedure and Appellant in her Petition cites numerous decisions from other states
to illustrate a need for reviewing the rule in Kentucky. Therefore, extensive research is
required by Appellee in order to fully argue its position.

For the foregoing reasons, Louisville Metro Government respectfully requests an
extension of the deadline for filing its brief in opposition of Appellant’s Petition for Writ of
Certiorari from April 12, 2021 until May 12, 2021.

Very truly yours,
/s/ Sean Ragland
Sean Ragland
Patricia C. Le Meur
Ryan D. Nafziger
Counsel for Appellee
cc:

Robyn Smith (Counsel for Appellant)
J. Gregory Troutman (Counsel for Appellant)
John D. Ogburn (Counsel for Appellee)

